         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

The Department of Energy's
American Recovery and
Reinvestment Act – Georgia State
Energy Program




OAS-RA-L-10-06                    September 2010
DOE F 1325.8
(08-93)
United States Government	                                                         Department of Energy


Memorandum

        DATE:     September 15, 2010	                             Audit Report Number: OAS-RA-L-10-06
    REPLY TO
     ATTN OF:     IG-32 (A10RA011)
   SUBJECT:	      Report on "The Department of Energy's American Recovery and Reinvestment Act –
                  Georgia State Energy Program"
           TO:	   Acting Program Director, Weatherization and Intergovernmental Program,

                  Office of Energy Efficiency and Renewable Energy


                  INTRODUCTION AND OBJECTIVE

                  The Department of Energy's (Department) Office of Energy Efficiency and Renewable
                  Energy (EERE) provides grants to states, territories and the District of Columbia (states)
                  to support their energy priorities through the State Energy Program (SEP). Federal
                  funding is based on a grant formula that considers the population and energy
                  consumption in each state, and amounted to $25 million for Fiscal Year (FY) 2009. The
                  American Recovery and Reinvestment Act of 2009 (Recovery Act) expanded the SEP by
                  authorizing an additional $3.1 billion to states using the existing grant formula. EERE
                  made grant awards to states after reviewing plans that summarize the activities each state
                  will undertake to achieve SEP Recovery Act objectives, including preserving and
                  creating jobs; saving energy; increasing renewable energy sources; and, reducing
                  greenhouse gas emissions. EERE program guidance emphasizes that states are
                  responsible for administering the SEP within each state, and requires each state to
                  implement internal controls over the use of Recovery Act funds.

                  The State of Georgia received $82.5 million in SEP Recovery Act funds; a 78-fold
                  increase over its FY 2009 SEP grant of approximately $1.1 million. Georgia's SEP is
                  managed by the Energy Division of the Georgia Environmental Facilities Authority
                  (GEFA). As part of the Office of Inspector General's strategy for reviewing the
                  Department's implementation of the Recovery Act, we initiated this review to determine
                  if GEFA had internal controls in place to provide assurance that the goals of the SEP and
                  the Recovery Act will be accomplished efficiently and effectively.

                  CONCLUSION AND OBSERVATIONS

                  We found that GEFA was substantially in compliance with major Recovery Act
                  requirements for SEP projects. For example, we found that GEFA had established a SEP
                  funding strategy, was generally in compliance with Recovery Act reporting guidelines,
                  had segregated Recovery Act costs and had ensured that Recovery Act requirements were
                  included in subcontracts. In addition, we determined that GEFA had established
                  technical and fiscal monitoring plans for its SEP Recovery Act funded projects.
                                Georgia's Funding Strategy

Georgia's strategy for its $82.5 million in Recovery Act SEP funding focused primarily
on state facility retrofits with the remaining funds being utilized for rebate, grant, and
monitoring programs. For example, GEFA entered into Intergovernmental Agreements
with the Construction Division of the Georgia State Financing and Investment
Commission (GSFIC) and the Board of Regents of the University System of Georgia
(BOR) to administer the State Facilities Retrofit Program (Retrofit Program). GEFA
allocated $64 million of the $82.5 million in Recovery Act SEP funds to the Retrofit
Program- $36 million for GSFIC and $28 million for BOR – to offset the incremental
cost of energy efficient retrofits and renewable energy equipment in state government
facilities. The remaining $18.5 million in Recovery Act SEP funds will be administered
by GEFA to support a Clean Energy Rebate Program, Renewable Energy and Energy
Efficiency Grants Programs, program management expenses and a building code update
program.

                                Recovery Act Compliance

GEFA submitted quarterly reports to EERE that included appropriate Recovery Act
information such as funds expended and milestones achieved. In addition GEFA
segregated Recovery Act costs by establishing separate accounts for those costs, which
we verified through review of GEFA's financial documentation. Finally, GEFA ensured
that Recovery Act requirements were included in subcontracts. Specifically, provisions
regarding access to records by oversight organizations, open competition for contracts,
and separate accounting for Recovery Act funds were appropriately flowed down to
contractors.

                                Technical Monitoring Plan

GEFA acted to implement technical monitoring programs for its Recovery Act funded
SEP projects. Specifically, the Intergovernmental Agreements with GSFIC and BOR
require on-site inspection and/or status reports during performance, a final inspection by
an inspector or design professional upon project completion, and a measurement and
verification program to validate energy savings. For the remaining SEP programs, GEFA
has prepared a draft monitoring plan which outlines its intention to obtain technical
monitoring services. In particular, the draft monitoring plan states that GEFA will issue a
technical monitoring Request for Proposal from which either an individual or an
organization will be selected to evaluate technical aspects of SEP projects. It also lists
elements that will be reviewed during both desk and field monitoring for SEP projects.

                                  Fiscal Monitoring Plan

GEFA developed a monitoring plan for fiscal oversight of the $82.5 million in SEP
Recovery Act funds it received. Specifically, GEFA hired one fiscal monitor to perform
financial audits of projects based on risks such as the level and type of expenditure, size
of the subgrantee's business operation, and level of funding. The fiscal auditor is also



                                     2

responsible for monitoring the Weatherization Assistance Program and Energy Efficiency
and Conservation Block Grants, and has expressed concern as to his ability to effectively
monitor such a large amount of funding. EERE has advised grantees that the substantial
expansion of SEP program funds requires a new level of oversight to ensure that
resources are used in an appropriate manner. Accordingly, GEFA plans to hire an
assistant to support fiscal monitoring efforts. In addition, as required by their
Intergovernmental Agreements, GISFIC and BOR are developing their fiscal monitoring
approaches which will include processes such as invoice reviews. GEFA's fiscal auditor
plans to rely on their work if it is deemed acceptable.

Since no formal recommendations are being made in this report, a formal response is not
required. We appreciated the cooperation of the various Department elements and the
staff at GEFA during this effort.




                                     David Sedillo, Director
                                     NNSA & Science Audits Division
                                     Office of Inspector General

Attachment

cc:	 Director, Office of Risk Management, CF-80
     Team Leader, Office of Risk Management, CF-80
     Audit Resolution Specialist, Office of Risk Management, CF-80
     Audit Liaison, Energy Efficiency and Renewable Energy, EE-3A
     Audit Liaison, National Energy Technology Laboratory




                                    3

                                                                                      Attachment


SCOPE AND METHODOLOGY


The audit was performed between January 2010 and July 2010. We conducted work at the

Georgia Environmental Facilities Authority in Atlanta, Georgia.


To accomplish the audit objective, we:


        Reviewed laws and regulations, State Energy Program Formula Grants Recovery Act
        Funding Opportunity, and Office of Management and Budget policies and procedures
        relevant to the management of the Department of Energy's (Department) Energy
        Efficiency and Renewable Energy American Recovery and Reinvestment Act of 2009
        (Recovery Act) funding;

        Reviewed grant award files, terms and conditions, and correspondence documents;

        Held discussions with Georgia and Department officials;

        Reviewed Georgia's State Energy Program (SEP) Recovery Act state plan and the
        methodology used for the assumptions in the state plan;

        Reviewed prior SEP grants, policies and procedures for managing SEP projects, requests
        for proposals; and,

        Performed transaction testing for SEP Recovery Act transactions.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. We assessed the significant
internal controls and found no significant weaknesses. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. We did not rely upon computer processed data to accomplish our audit objective.

State of Georgia and Department officials waived an exit conference.




                                                4

                                                                IG Report No. OAS-RA-L-10-06

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding this
    report?

2.	 What additional information related to findings and recommendations could have been
    included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's overall
    message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the issues
    discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should we have
    any questions about your comments.


Name 	                                        Date

Telephone	                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
